         DIVERSITY MANAGEMENT PROGRAMS AT
AUDIT      THE GOVERNMENT PRINTING OFFICE
REPORT
                   September 11, 2008
08-10




         OFFICE OF INSPECTOR GENERAL
                                                     Memorandum
                                                      OFFICE OF THE INSPECTOR GENERAL
                    WASHINGTON, DC 20401




   DATE:    September 11, 2008

REPLY TO
 ATTN OF:   Assistant Inspector General for Audits and Inspections

 SUBJECT:   Final Report on Audit of Diversity Management Programs at the GPO
            Report Number 08-10

      TO:   Public Printer
            Director, Office of Equal Employment Opportunity
            Chief Human Capital Officer


            Enclosed please find the subject final report. Please refer to the Executive
            Summary for the overall audit results. Our evaluation of your response has been
            incorporated into the body of the report and is included in its entirety as
            Appendix J. While management concurred with each of the report’s
            recommendations, specific planned actions for each of the recommendations were
            not provided. We are requesting that you provide additional details related to
            specific actions the Agency plans to take to implement the recommendations. As
            a result, pending receipt of details related to implementation, each of the
            recommendations is considered unresolved. The final report distribution is in
            Appendix L.

            We appreciate the courtesies extended to the audit staff. If you have any
            questions concerning the report, please contact Mr. Joseph Verch, Supervisory
            Auditor at (202) 512-0065, or me at (202) 512-2009.


            (Original signed by)

            Kevin J. Carson
            Assistant Inspector General for Audits and Inspections



            cc:
            Chief of Staff
            Chief Management Officer
            General Counsel
Contents

Executive Summary ............................................................................................................. i

Introduction.......................................................................................................................... 1

Findings and Recommendations......................................................................................... 6

           Finding A. Incorporating the Essential Elements of EEOC Management
           Directive 715.............................................................................................................. 6

           Finding B. Incorporating the Government Accountability Office’s Leading
           Diversity Management Practices ...............................................................................13

Appendix A – Objectives, Scope, and Methodology .........................................................23

Appendix B – Assessment of Whether GPO Practiced the Essential Elements of
             EEOC Management Directive 715 .............................................................25

Appendix C – White and Blue Collar Workforce Profile by Grade, Race, and Sex
            (As of January 28, 2008)..............................................................................26

Appendix D – Assessment of Whether GPO Exemplifies GAO’s Leading
            Practices for Diversity Management..........................................................27

Appendix E – Public Printer’s April 8, 2008, Letter on Equal Opportunity and
             Diversity ........................................................................................................28

Appendix F – Summary of Leading Practices GPO Followed (From
             PricewaterhouseCoopers and EEOC Management Directive 715)........29

Appendix G – Accuracy and Completeness of EEO Data................................................30

Appendix H – Independence of the Diversity Office ........................................................31

Appendix I – Acronyms Used in the Report......................................................................32

Appendix J – Management’s Response .............................................................................33

Appendix K – Status of Recommendations .......................................................................35

Appendix L – Report Distribution .....................................................................................36

Major Contributors .............................................................................................................37
                                Office of Inspector General


Report Number 08-10                                                             September 11, 2008


                           Diversity Management Programs
                           at the Government Printing Office

                                      Executive Summary

Background. The Government Printing Office (GPO) Office of Inspector General (OIG)
has completed an audit of diversity management programs at the GPO. The audit was
conducted in response to a request from the Chairman of the Subcommittee on Federal
Workforce, Postal Service, and the District of Columbia, of the House of
Representatives’ Committee on Oversight and Government Reform. The Subcommittee
requested that the OIGs of each legislative branch agency assess the programs the
diversity offices have in place to address diversity concerns.1 The participating OIGs
plan to publish the final results in a consolidated report by September 2008.

Objectives. The overall objective of the audit was to review diversity within GPO,
specifically to:

       Identify and assess the diversity program at GPO to determine if it is yielding the
        desired results—that of creating a more diverse population of women and
        minorities in top leadership positions, specifically the Senior Level Service
        (SLS);2

       Evaluate the accuracy and completeness of the complaints and discrimination data
        reported to Congress; and

       Assess the degree to which diversity offices or functions are independent of the
        General Counsel and the Public Printer.

See Appendix A for details on the audit objectives, scope, and methodology.

Results of Audit. While not mandated to comply with the guidelines and directives of
the Equal Employment Opportunity Commission (EEOC) concerning model affirmative
action programs, prior to this audit commencing, senior officials at GPO, including the
Directors of the Office of Equal Employment Opportunity (EEO) and Human Capital
began adopting some elements of both EEOC Management Directive 715 (MD-715) and
1
  Other legislative branch agencies include the Library of Congress, Government Accountability Office,
Architect of the Capitol, and the Capitol Police.
2
  Senior Level Service is the GPO equivalent to the Senior Executive Service (SES).


                                                  i
the leading diversity management practices identified by the Government Accountability
Office (GAO). GPO has also made progress in developing its pool of Grade 15s (PG-
15s) to ensure a qualified minority pool for the Agency’s SLS.3 However, improvements
can be made towards enhancing the diversity of the Agency’s corps of SLS employees.

The audit also showed that GPO complaints and discrimination data reported to the
EEOC during fiscal year (FY) 2007 and eventually reported to Congress were accurate
and complete. (See Appendix G). Further, although diversity management programs are
incorporated in the Affirmative Employment Program (AEP) Division of GPO’s EEO
Office, the Director of EEO is independent of the General Counsel, and to a certain
extent independent of the Public Printer in EEO matters. (See Appendix H).

Opportunities do exist for GPO to provide a more diverse population of qualified women
and minorities in top leadership positions by incorporating the remaining essential
elements of MD-715 as well as implementing the nine leading practices for diversity
management identified by the GAO. Such modifications should help the agency manage
the workforce and create an environment that helps diminish barriers for protected
groups. In addition, changes brought about through diversity management should help
attract and retain capable employees. With an expectation that a high percentage of the
Government workforce will retire in the next decade, GPO should continue developing a
comprehensive diversity program to meet those employment challenges.

The audit specifically identified that although GPO is not required to comply with
MD-715 or GAO’s leading diversity management practices:

       GPO has generally adopted three elements for creating and maintaining a model
        EEO program identified by MD-715, referred to as (1) demonstrated commitment
        from leadership, (2) efficiency, and (3) responsiveness and legal compliance.
        (Finding A); and

       Agency officials have partially adopted one of the GAO’s nine leading diversity
        management practices (top leadership commitment). (Finding B).

Recommendations. We made two recommendations to GPO management, which, if
implemented, should not only improve the GPO diversity program by providing a more
diverse population of qualified women and minorities in top leadership, but also
contribute to GPO’s ability to meet its future employment challenges.

Management’s Response. GPO Management concurred with each of the report’s two
recommendations and stated that implementation would require the Public Printer’s
review and approval (see Appendix J).



3
 At GPO, a Printing Office Grade (PG) 15 is the senior most grade and is generally equivalent to the
General Schedule (GS) Grade 15 classified by the Office of Personnel Management. Positions at GPO
above Grade PG-15 are in the Senior Level Service (SLS).


                                                 ii
Evaluation of Management’s Response. While GPO management concurred with each
of the recommendations, they did not provide details regarding what actions the Agency
plans to take to implement the recommendations. As a result, pending receipt of details
related to implementation, the recommendations are considered unresolved.




                                        iii
Introduction

In November 2007, the Chairman of the Federal Workforce, Postal Service, and the
District of Columbia Subcommittee of the House of Representatives’ Oversight and
Government Reform Committee issued a report entitled “Senior Executive Service:
Women and Minorities are Underrepresented in Most Legislative Branch Agencies.”4
The report discusses racial and gender diversity of the Senior Executive Service corps in
the six legislative branch agencies during FY 2007. The report stated that:

     Minorities represent 16.8 percent and women represent 35.8 percent of Senior
        Executive Service corps members in the six legislative branch agencies.

     In FY 2007, Senior Executive Service corps members at each agency were less
        diverse in terms of minorities than the agency’s workforce as a whole and in four
        of the six agencies less diverse in terms of women.

     The representation of minorities in the legislative branch Senior Executive
        Service corps is stagnant, with representation of women improving only slightly
        between FY 2002 and FY 2007.

     General Schedule-15 successor pools5 at some agencies were less diverse than the
        Senior Executive Service corps.

     In some agencies, the average total salary for minorities and women in FY 2007
        was less than for nonminority and male counterparts.

To ensure equal opportunity and diversity, the EEO Office at the GPO is responsible for
complying with civil rights statutes and regulations governing Federal employment.6 As
of January 28, 2008, GPO had a total of 2,263 white and blue collar employees (see
Appendix C). White collar employees generally consist of administrative, technical,
clerical, professional and management personnel while blue collar employees consist
generally of those employees who work in production departments. Of the 2,263
employees at GPO, 956 were women (42.3 percent) and 1,359 were minorities (60.1
percent). On staff at GPO are a total of 26 SLS employees consisting of 3 women (11.5
percent) and 3 minorities (11.5 percent). For white collar workers, the ratio between
women and minorities and SLS employees was similar—645 women (42.3 percent) and


4
  Report may be found at http://federalworkforce.oversight.house.gov/story.asp?ID=1617
5
  The November 2007 report of the Chairman of the Federal Workforce, Postal Service, and the District of
Columbia Subcommittee of the House of Representatives’ Oversight and Government Reform Committee
defines successor pools as an agency’s GS-15 and equivalent ranks of which the diversity of such pools can
provide an indicator of how diverse the Senior Executive Service (or equivalent rank) could become in the
future.
6
  Title VII of Civil Rights Act of 1964, Age Discrimination in Employment Act of 1967, and Title I of the
Americans with Disabilities Act of 1990.


                                                    1
611 minorities (52.5 percent). Tables 1 and 2 below provide more detail between the
makeup of GPO’s total workforce and between the total white collar workforce and the
SLS corps.

            Table. 1. FY 2008 Total Workforce (as of January 28, 2008)

                          Employees                     Workforce
              Males                               Number Percent
              White                                 610        27.0
              African American                      639        28.2
              Asian American/Pacific Islander        26         1.1
              Hispanic American                      26         1.1
              Native American                         6         0.3
               Total Males                         1,307       57.7

              Females
              White                                  294        13.0
              African American                       622        27.5
              Asian American/Pacific Islander         24         1.1
              Hispanic American                       12         0.5
              Native American                          4         0.2
               Total Females                         956        42.3
                 Overall Totals                     2,263      100.0


    Table 2. FY 2008 White Collar Workforce Contrasted with SLS Employees
                            (as of January 28, 2008)

               Employees                      Workforce             SLS
    Males                               Number Percent         Number Percent
    White                                 315        27.1        22     84.6
    African American                      165        14.2         0      0.0
    Asian American/Pacific Islander        19         1.6         0      0.0
    Hispanic American                      17         1.4         1      3.9
    Native American                         2         0.2         0      0.0
     Total Males                          518        44.5        23     88.5

    Females
    White                                 237         20.4         1         3.8
    African American                      372         32.0         2         7.7
    Asian American/Pacific Islander        20          1.7         0         0.0
    Hispanic American                      12          1.0         0         0.0
    Native American                         4          0.4         0         0.0
     Total Females                        645         55.5         3        11.5
       Overall Totals                    1,163       100.0        26       100.0


                                        2
The EEO Director is responsible for ensuring that equal opportunities exist for employees
and applicants without regard to race, sex, color, religion, national origin, sexual
orientation, age, and physical and mental disability. The EEO Office consists of two
divisions: (1) the Affirmative Employment Program (AEP) Division; and (2) the
Counseling and Complaints Processing Division (CCPD). For FY 2007, the GPO EEO
Office had a budget of $888,500 and a staff of seven employees.7

AEP Division

The AEP Manager assures that equal opportunity principles are an integral part of every
aspect of personnel policy and practice in the recruitment, employment, development,
advancement, and treatment of GPO staff and applicants for employment. In addition,
the AEP Manager also manages special emphasis programs that implement Presidential
Executive Orders and Federal personnel programs for eliminating demographic group
imbalances in targeted occupations, and achieving diversity in the workforce.

The AEP manager oversees three special emphasis programs assigned to GPO managers
who work the programs as a collateral duty. Collateral duty managers can spend up to 25
percent of their time managing the following special emphasis programs.

         Disability Program

The Disability Program at GPO consists of a program manager and ten employees who
voluntarily serve on the Disability Program Committee. The mission of the committee is
to raise awareness of disability policies and programs through information dissemination
and education programs and help elevate disability concerns to the EEO Office. The
program committee works with the EEO Office to identify employment barriers to
individuals with disabilities, review Agency policies addressing employment issues, and
recommend changes.

         Federal Women’s Program

The Federal Women’s Program (FWP) at GPO has the involvement of the EEO Director,
the AEP Manager, and an FWP Manager, who performs the job as a collateral duty. The
FWP committee also has 34 members. The FWP committee’s mission is to continually
identify, promote, and enhance employment and training opportunities for women. The
committee also helps keep women at GPO apprised of employment issues; assists women
in training, career development, and advancement; provides networking channels with
other FWP organizations on issues related to eliminating barriers to equal access and
opportunity; and promotes professionalism that furthers the progress of women.




7
    GPO’s budget for FY 2007 was $848.225 million.


                                                 3
      Hispanic Employment Program

The GPO Hispanic Employment Program’s (HEP) mission is to eliminate discriminatory
practices, assist in eliminating areas of under-representation or underutilization, evaluate
practices for disparate impact or treatment, and recommend changes to eliminate barriers
to Hispanic employment. The HEP manager serves in the position as a collateral duty
and also serves as the Secretary to the National Council of HEP Managers, a body
consisting of members from 40 different federal agencies appointed as their agency’s
designee responsible for building relationships between federal agencies and the Hispanic
community. The HEP manager also is responsible for e-mailing GPO job vacancies to
not only 67 Hispanic organizations, but also to more than 800 individuals who belong to
the Washington DC-Hispanic Employment Network.

      Other Programs

The AEP Manager also manages the pilot Employee Mentoring Program and the
Passport-to-Work Summer Youth Program, and also co-manages the Coming Home to
Work Program. The GPO Employee Mentoring Program (GEM) began as a pilot
program in April 2008 and is designed to enhance employee retention, job satisfaction,
and cross-organizational communication through employees receiving guidance,
counseling, and coaching from designated GPO mentors. In another program, the
Department of Veterans Affairs works with GPO and sponsors the Coming Home to
Work Program that helps provide suitable employment opportunities for eligible
members of the armed services. The Passport-to-Work Summer Youth Program offers
District of Columbia youths, ages 14 to 21, a 10-week temporary summer job at GPO—
funded by the District of Columbia Youth Employment Office. GPO has participated in
this program for several years, and placed an average of 52 students from this program
during the last 6 years, with 48 placed in 2008.

CCPD Division

The Assistant Director/Chief of CCPD manages the EEO complaint process for GPO
employees and applicants for employment involving issues of discrimination on the basis
of race, sex, color, religion, national origin, sexual orientation, age, disability, and
reprisal for prior participation in the EEO complaints process. Along with three EEO
specialists, the Chief of CCPD issues policy and guidelines related to discrimination
complaint procedures, monitors complaints of discrimination to detect indications of
discriminatory patterns and practices, and prepares final Agency decisions on complaints.
The CCPD also collects, maintains, and analyzes data on the discrimination complaint
process and serves as the official source of information for the status of complaints at
GPO. CCPD also oversees recruiting, selecting, and maintaining a cadre of trained EEO
specialists.




                                           4
Leadership, Development, and Recruitment Program

The Agency has also recently started a new leadership program for employees. The
Leadership, Development, and Recruitment (LDR) program is a 2-year program, and is
staffed with employees recruited from both within and outside the Agency. The LDR
program allows employees to work in a number of business units—receiving well-
rounded, hands-on experience necessary to prepare them as future GPO leaders.




                                       5
Findings and Recommendations

Finding A. Incorporating the Essential Elements of EEOC
           Management Directive-715
Although not mandated, senior officials at GPO have begun to generally follow several of
the key elements of the EEOC’s MD-715 for creating and maintaining a model EEO
program into the structure of the Agency. For example, of the six essential elements
outlined in MD-715, GPO has generally incorporated three: (1) demonstrated
commitment from agency leadership; (2) efficiency; and (3) responsiveness and legal
compliance. The three additional elements that would help establish a model EEO
program include: (1) integration of EEO into the agency’s strategic mission;
(2) management and program accountability; and (3) proactive prevention of unlawful
discrimination.

Basic Tenets of Management Directive 715

Effective October 1, 2003, the EEOC issued MD-715. The directive provides the basic
elements necessary for creating and maintaining a model EEO program in the Federal
government. The directive specifically applies to agencies in the executive branch and
Military Departments (except uniformed members), the U.S. Postal Service, the Postal
Rate Commission, the Tennessee Valley Authority, the Smithsonian Institution, and those
units of the judicial branch of the Federal Government having positions in the
competitive service.

When establishing a model EEO program, MD-715 provides that an agency should
incorporate into its design a structure for effective management, accountability, and self-
analysis that will ensure program success. MD-715 not only contains reporting
requirements, but states that six essential elements make up a model EEO program
including:

      Demonstrated commitment from agency leadership.
      Integration of EEO into the agency’s strategic mission.
      Management and program accountability.
      Proactive prevention of unlawful discrimination.
      Efficiency.
      Responsiveness and legal compliance.

As part of the audit, the OIG assessed the current status of GPO’s voluntary efforts to
integrate the elements of MD-715 into the structure of the Agency. The results of our
assessment are discussed in the following section and are summarized in Appendix B.




                                             6
Essential Element One – Demonstrated Commitment From Agency Leadership

Element One recommends that the demonstrated commitment from agency leadership
start with an effective EEO program policy statement. The criteria states that at the
beginning of a tenure and each year thereafter, the head of an agency should issue a
signed written policy statement announcing the agency’s position against discrimination
based on the areas that Federal law covers. GPO has voluntarily adopted this element as
the Public Printer issued a policy statement to all GPO employees on April 8, 2008,
emphasizing his personal commitment to equal opportunity and diversity. (See Appendix
E for the complete text of that statement).8

The element further recommends that the head of an agency and other senior
management officials demonstrate a commitment to equal employment by incorporating
the principles of EEO into an agency’s organizational structure and disseminating a
policy demonstrating this commitment annually. Publishing such a statement sends a
clear message to others in the organization about the seriousness and business relevance
of diversity management. Accordingly, we recommend that the Public Printer continue
to issue a policy statement addressing his commitment to EEO and diversity on a yearly
basis as suggested by MD-715.

Essential Element Two – Integration of EEO into the Agency’s Strategic Mission

Element Two provides that the concepts of EEO should be a part of the strategic mission
and that an agency’s EEO program should be organized and structured in a way that
maintains a workplace free from discrimination through its policies, procedures, or
practices. Although GPO’s current strategic plan entitled A Strategic Vision for the 21st
Century (December 1, 2004) does not include an EEO message, GPO has followed
several of the other concepts of Element Two in that GPO has:

        Maintained a reporting structure that allows the EEO Director the appropriate
         authority and resources to effectively carry out a successful EEO program.

        Committed sufficient human resources and budget allocations to the EEO
         program for a successful operation.

        Empowered the EEO Director to have regular and effective ways of informing the
         Public Printer and senior management officials of the status of EEO programs and
         being involved in, and consulting on, management and personnel actions.

While management has recognized several aspects of Element Two, management should
integrate EEO into the Agency’s strategic plan. Accordingly, we recommend that as the
new Public Printer formulates his strategic plan, he include EEO and diversity as an
integral part of GPO’s strategic mission.

8
  The current Public Printer was appointed by the President on November 6, 2007. While the current
Public Printer issued a policy statement to employees at the beginning of his tenure as Public Printer, over
three years had elapsed since the previous Public Printer issued his statement on February 1, 2005.


                                                   7
Essential Element Three – Management and Program Accountability

To ensure management and program accountability, criteria in Element Three discusses
overall accountability and EEO program management. The criteria recommends that the
head of an agency should hold managers, supervisors, and EEO officials responsible for
effective implementation of an agency’s EEO program and plan.

The thrust of management and program accountability is that EEO officials advise and
provide assistance to managers about the status of EEO programs within each manager’s
area of responsibility. In addition, the Directors of EEO and Human Capital should meet
regularly and assess whether personnel programs, policies, and procedures conform to
EEOC management directives. MD-715 also instructs that the agency explore whether
disciplinary actions should be taken when findings of discrimination are made.

In October 2007, EEO officials at GPO began meeting with business unit managers
semiannually to discuss EEO issues and concerns within business units, provide
information on EEO programs and analysis of workforce data, and obtain input that could
assist in developing strategies for improving EEO programs at GPO.

While GPO practices address portions of Element Three’s criteria, we recommend that
EEO continue to work with business unit managers to develop EEO plans and that EEO
and Human Capital officials work together and with business unit managers to identify
systemic barriers in hiring, promotions, training, and awards.

Essential Element Four – Proactive Prevention of Unlawful Discrimination

Element Four states that an agency has an obligation to prevent discrimination on the
basis of race, color, national origin, religion, sex, age, reprisal and disability, and to
eliminate barriers that impede free and open competition in the workplace.9 Putting such
an obligation into place begins with informing employees about an effective anti-
discrimination policy that explains the protections afforded by the civil rights laws, the
rights afforded in such situations, and the process for redress. Further, the head of an
agency must make efforts early to prevent discriminatory actions and eliminate barriers to
equal employment opportunity in the workplace.

The criteria recommends that agencies conduct annual self-assessments to monitor
progress, identify areas where barriers may operate to exclude certain groups, and
develop strategic plans to eliminate identified barriers. In an attempt to benchmark
GPO’s status, we requested that the EEO officials conduct a self-assessment to help
identify gaps and potential areas for development. The results of this assessment are
summarized in Table 3.



9
  The Statement of the Public Printer, dated April 8, 2008, is more comprehensive than that recommended
by MD-715: “Employment actions must be based upon merit principles and made without regard to an
individual’s race, color, religion, national origin, sex, age, mental/physical disability or sexual orientation.”


                                                     8
     Table 3. Types of Information Needed for Accurate Self-Assessment as Prescribed
                                       by MD-715

                                                                                                Not
                            Workforce Profiles                       Provided                 Provided
1.    Total workforce distribution by race, national origin, and sex
      for both the permanent and temporary workforce                   X10
2.    Permanent and temporary workforce participation rates for
      each grade level by race, national origin, and sex               X11
3.    Permanent and temporary workforce participation rates for
      each of the agency’s major occupational categories (divided
      by grade level) by race, national origin, and sex                                           X12
4.    Participation rates in supervisory and management positions
      by race, national origin, and sex                                                           X13
5.    Race, national origin, and sex of applicants for both
      permanent and temporary employment                                                           X
6.    Rates of selections for promotions, training opportunities and
      performance incentives, by race, national origin, and sex        X14
7.    Rates of both voluntary and involuntary separations from
      employment by race, national origin, and sex                     X15

 Since GPO is not required to follow MD-715, the AEP Manager has not yet implemented
 annual self-assessments. However, we recommend annual self-assessments so that the
 AEP Manager can more effectively monitor progress, identify areas where barriers
 exclude certain groups, and develop strategic plans to help eliminate barriers.
 Additionally, in the absence of a formal requirement for self-assessments, the data
 necessary to complete these assessments is not readily available from Information
 Technology and Systems (IT&S) in the desired format. Under the circumstances, the
 AEP Manager must now manually reformat data from Human Capital and arrange it in a
 format suitable for agency needs or congressional hearings. A request for software that
 would assist the efforts of the AEP Manager, is pending. Since more complete and
 accurate data would help the AEP Manager monitor progress and identify areas where
 barriers are possibly excluding certain groups, we recommend further action in order to
 meet the requirements of Element Four.




 10
    Provided only permanent workforce for FY 2006 and 2007; did not provide temporary workforce.
 11
    Provided only permanent workforce for FY 2006 and 2007; did not provide temporary workforce.
 12
    Provided occupation by organization for FY 2007 and organization profile by occupation series for full-
 time, part-time, and other for FY 2006 and 2007.
 13
    Provided organizational profile by supervisor and manager for full-time, part-time, and other for
 FY 2006 and 2007.
 14
    Provided promotions for FY 2006 and 2007; Human Capital was not asked by EEO to provide profiles
 for training opportunities and performance incentives.
 15
    Provided separations for FY 2006 and 2007; report did not distinguish between voluntary and
 involuntary for both years.


                                                   9
Essential Element Five – Efficiency

Element Five requires that the agency head ensure that there are effective systems in
place for evaluating the impact and effectiveness of the agency’s EEO programs as well
as an efficient and fair dispute resolution process. Critical to this element are adequate
and accurate information collection systems. Such systems fully integrated into an
agency’s infrastructure help it conduct periodic reviews—thus allowing the agency to
stay on top of those items affecting the myriad of EEO areas.

Element Five identifies six areas for the agency to comply with EEOC’s instructions
including: (1) sufficient staffing, funding, and authority to achieve the elimination of
identified barriers; (2) an effective complaint tracking and monitoring system in place to
increase the effectiveness of the agency’s EEO programs; (3) sufficient staffing, funding
and authority to comply with the time frames in accordance with EEOC regulations for
processing EEO complaints of employment discrimination; (4) an efficient and fair
dispute resolution process and effective systems for evaluating the impact and
effectiveness of the agency’s EEO complaint processing program; (5) effective systems
in place for maintaining and evaluating the impact and effectiveness of its EEO
programs; and (6) ensuring that the investigation and adjudication function of its
complaint resolution process are separate from its legal defense arm of the agency or
other offices with conflicting or competing interests.

GPO is achieving many of the objectives of Essential Element Five. However, further
progress can be made to develop methods to identify and eliminate barriers and
implement specific strategies for evaluating the impact and effectiveness of EEO
programs.

Additionally, EEO officials have experienced difficulty consolidating the information
obtained from Human Capital due to the variances in data formats available for tracking
the information required to achieve the elimination of identified barriers. Accordingly,
we recommend that GPO management identify a solution to ensure the ability to obtain
accurate data for use in identifying and eliminating barriers and to help evaluate the
impact and effectiveness of its EEO programs.

Illustrative of this point is the absence of recruitment effort tracking and analysis. For
example, between September 2007 and February 2008, the EEO Director visited
universities in California, New Mexico, and Texas to recruit Hispanic Americans for
GPO’s 2008 Leadership Program and other job vacancies. In addition, Human Capital
officials made similar visits to universities to recruit for the Leadership Program. Despite
these efforts, Human Capital did not track these recruitment efforts or have a written plan
for attracting a supply of qualified, diverse applicants for GPO employment. Since the
EEO Director and Human Capital officials are not the hiring officials for GPO’s
individual business units, consideration should be given to having business unit managers
participate in future recruiting efforts.




                                          10
Although GPO was generally following most of the six subcategories, we recommend
that management emphasize these additional areas, to help ensure that effective systems
are in place for evaluating the impact and effectiveness of the EEO programs.

Essential Element Six – Responsiveness and Legal Compliance

Element Six contains a requirement that each year an agency certify that it is complying
with EEO laws and EEOC regulations, policy guidance, and other written instructions.
Element Six also identifies that agency personnel should be accountable for the timely
compliance with EEOC orders. While the EEO staff are formally trained and responsible
for compliance with EEO laws and EEOC regulations and orders, these requirements are
not fully incorporated into the performance standards of GPO employees. The EEO
Office has a system called EEO Network (EEONET) which ensures that any EEO cases
over 30-days old are identified. This system is backed up by a manual calendar system
which ensures that GPO officials comply in a timely manner with any orders or directives
issued by EEOC Administrative Judges.

Although generally following the requirements of Element Six, management can send a
positive and clear message to all GPO employees about maintaining a workplace free of
discrimination and harassment as well as a commitment to EEO and diversity by
requiring compliance with EEO laws and EEOC regulations in the performance standards
of all managers and SLS personnel.

While GPO is voluntarily complying with several of the essential elements identified by
the EEOC, the opportunity exists through fully incorporating the six elements to create
and maintain a model EEO program at GPO. Creation of a model program will help
further ensure that the agency is not only free from employment discrimination, but also
has a diverse workforce.

Recommendation
1. The Public Printer should incorporate the six essential elements of Equal Employment
Opportunity Commission Management Directive 715 by taking the following actions:

   a. Continue to issue and disseminate to GPO employees an annual signed written
      policy statement expressing Agency commitment to equal employment
      opportunity as well as maintaining a workplace free of discriminatory harassment
      and practices.

   b. Integrate equal employment opportunity policy and practices into future agency
      strategic plans.

   c. Require, with assistance from EEO officials, that business unit managers develop
      an EEO plan for their individual units and that EEO and Human Capital officials
      meet regularly to identify any systemic barriers in hiring, promotions, training,
      and awards.


                                         11
   d. Conduct annual self-assessments that monitor progress, identify areas where
      barriers may exclude certain groups, and develop strategic recruitment plans to
      eliminate those barriers to the extent possible and to attract a qualified, diverse
      pool of applicants.

   e. Maintain and provide sufficient resources—including staffing, funding, and
      authority—for EEO officials to track workforce profiles that will help eliminate
      identified barriers and recruitment efforts that will assist officials with identifying
      potential barriers. The resources provided should also include the information
      technology infrastructure (hardware, software, etc.) necessary to allow EEO
      officials to effectively produce workforce diversity statistics.

   f. Incorporate compliance with EEO laws and EEOC regulations in performance
      standards for all managers including SLS personnel.

Management’s Response. Concur. Implementation of the recommendation will require
the Public Printer’s review and approval (see Appendix J).

Evaluation of Management’s Response. While GPO management concurred with the
recommendation, they did not provide details regarding what actions the Agency plans to
take to implement the recommendation. As a result, pending receipt of details related to
implementation, the recommendation is considered unresolved. The OIG will work with
GPO management to review any proposed actions to implement the recommendation.




                                           12
Finding B. Incorporating GAO’s Leading Diversity Management
           Practices
To date, GPO officials have partially adopted the nine practices identified by the GAO as
the most common leading diversity management practices. Specifically, the Agency has
partially adopted one of the GAO leading practices and is actively working on developing
a plan for another of the practices--succession planning. GPO had not made decisions
regarding adoption of the remaining practices at the time of the audit. Similar to the key
elements of EEOC MD-715 for creating and maintaining a model EEO program,
adoption of the nine practices identified by the GAO would help further ensure that the
agency has a diverse workforce and an effective EEO program.

The GAO Leading Practices

In January 2005, GAO issued a report to the Ranking Minority Member, Committee on
Homeland Security and Government Affairs, U.S. Senate entitled “Diversity
Management: Expert-Identified Leading Practices and Agency Examples.”16 This report
identified nine leading practices to be considered when an organization is developing and
implementing a diversity management program. These nine practices were developed by
GAO after speaking with experts in the field of diversity management and reviewing
their publications. The practices that GAO identified include:

          Top leadership commitment—a vision of diversity demonstrated and
           communicated throughout an organization by top-level management;

          Diversity as part of an organization’s strategic plan—a diversity strategy and
           plan that are developed and aligned with the organization’s strategic plan;

          Diversity linked to performance—the understanding that a more diverse and
           inclusive work environment can yield greater productivity and help improve
           individual and organizational performance;

          Measurement—a set of quantitative and qualitative measures of the impact of
           various aspects of an overall diversity program;

          Accountability—the means to ensure that leaders are responsible for diversity by
           linking their performance assessment and compensation to the progress of
           diversity initiatives;

          Succession planning—an ongoing, strategic process for identifying and
           developing a diverse pool of talent for an organization’s potential future leaders;

          Recruitment—the process of attracting a supply of qualified, diverse applicants
           for employment;

16
     GAO 05-90, January 14, 2005, available at http://www.gao.gov/newitems/d0590.pdf


                                                 13
        Employee involvement—the contribution of employees in driving diversity
         throughout an organization; and

        Diversity training—organizational efforts to inform and educate management
         and staff about diversity.

We reviewed GPO’s diversity programs to benchmark the Agency’s standing in relation
to GAO’s nine leading diversity management practices. The results of our review are
discussed in the following section and are summarized in Appendix D.

1. Top Leadership Commitment

A commitment of top leadership is the first leading practice that GAO identifies in its
January 2005 report. That practice requires that the head of an agency and other senior
officials commit themselves to diversity by incorporating the principles of EEO into an
agency’s organizational structure. The Public Printer issued a policy statement to all
GPO employees on April 8, 2008, emphasizing his personal commitment to equal
opportunity and diversity. (See Appendix E for the complete text of that statement).
While the current Public Printer issued a signed policy statement to employees at the
beginning of his tenure as Public Printer, over three years had elapsed since the previous
Public Printer issued his statement on February 1, 2005. As previously recommended,
the Public Printer should follow MD-715 guidance and continue to issue a signed policy
statement annually to all employees addressing his commitment to diversity and EEO.
This ongoing demonstration of commitment from the Public Printer is critical to the
success of GPO’s diversity and EEO programs.

2. Diversity as Part of an Organization’s Strategic Plan

An emphasis on diversity as part of an organization’s strategic plan is the second leading
practice that GAO identifies in its January 2005 report. Such a practice requires an
emphasis on integrating diversity management into an organization’s strategic plan
because it fosters a culture change that supports and values differences. Since it typically
takes five to seven years to complete the initiatives of an agency’s strategic plan,
sustaining top leadership commitment to improvement is particularly challenging since
the turnover rate for political appointees is just less than three years.17 The Public Printer
should link diversity to any future update of the Agency’s Strategic Plan to ensure that
EEO and diversity are considered an integral part of the agency’s strategic mission.

3. Diversity Linked to Performance

The contribution that diversity plays in achieving improved individual and organizational
performance is the next leading practice that GAO identifies in its January 2005 report.
Diversity management makes good business sense, enhancing productivity and

17
  GAO, High –Risk Series: Strategic Human Capital Management, GAO-03-120 (Washington, D.C.
January 2003) reported that governmentwide the average tenure of political appointees for 1990 through
2001 was just under three years.


                                                 14
innovation. In addition, diversity management can help reduce costs by reducing
turnover, increasing employee retention across demographic groups, and improving
morale. GPO should include the development of diversity management as part of its
strategic plan.

4. Measurement

Quantitative and qualitative measures are vital tools in helping an agency evaluate the
effectiveness of its diversity management in terms of return on investment, recruitment
efforts, and retention. These tools can also help an agency compute the return on their
investments in areas such as diversity training and recruiting. As previously noted, EEO
officials have not been able to easily obtain workforce data to aid in such measurements.
Further, the absence of written plans for attracting a supply of qualified, diverse
applicants for employment, makes it difficult to measure success.

Since GPO has not implemented methods to measure or evaluate the effectiveness of the
organization’s diversity management, it was not possible to evaluate the return on
investment for training or retraining. This type of measurement is important because it
provides an agency an idea of where barriers might be that are hindering success with
diversity-related goals. Although EEO officials informed us that GPO will adopt this
GAO leading practice, it is our opinion that this decision should be made by the GPO
Chief Human Capital Officer, who is responsible for workforce data and recruitment.

5. Accountability

Ensuring that managers maintain diversity, evaluate progress, and can manage diverse
groups is the next leading practice that GAO identifies. Accountability is defined by
GAO as the means to ensure that leaders are responsible for diversity by linking their
performance assessment and compensation to the progress of diversity initiatives. To
accomplish accountability, organizations should link ratings and compensation. The
Government’s Senior Executive Service corps is already held to that type of
accountability—consistent with section 4313 of Title 5, which provides performance
appraisal criteria for achieving EEO requirements. This accountability is also consistent
with the EEOC’s instructions to Federal agencies implementing MD-715.18

At GPO, managers and supervisors are held to core EEO commitments in order to obtain
performance bonuses. As a point of interest, FY 2007 performance agreements for
supervisors and the SLS corps contained a statement about EEO issues, whereas, in the
FY 2008 agreements, that statement was changed. For the differences in the two
agreements, see the portion below highlighted in italics.


18
  The instructions describe the requirement that agencies inform managers and supervisors that success and
a positive evaluation will include an assessment of how that manager contributes to the agency’s EEO
program by emphasizing to managers and supervisors that equality of opportunity is essential to attracting,
developing, and retaining the most qualified workforce, with such a workforce being essential to ensuring
the agency’s achievement of its strategic mission.


                                                 15
                                  FY 2008 Performance Agreement

       I will make decisions in areas such as hiring, training, awards, special projects and
       developmental assignments without regard to sex, race, color, religion, national origin,
       age, disability, sexual orientation, or reprisal. I will conduct myself in accordance with
       all applicable legal and ethical standards of behavior and will assist on and enforce these
       standards within my organization. In the event that the above core commitment is not
       being met, the supervisor’s rater must immediately provide guidance and advice to
       address any performance-related problems.

                                  FY 2007 Performance Agreement

       I will make decisions in areas such as hiring, training, awards, special projects and
       developmental assignments without regard to sex, race, color, religion, national origin,
       age, disability, sexual orientation, or reprisal in order to nurture talent, create diverse
       opportunities and maximize the potential of GPO’s workforce. I will promote staff
       participation in EEO events and programs. I will work with EEO to address and resolve
       allegations of discrimination and/or harassment within my organization.


EEO officials stated that no decision had been made to adopt this practice
although Human Capital officials stated that the draft EEO core commitment for
FY 2009 performance agreements would be similar to the previous FY 2007 core
commitment. We recommend that the agency adopt core commitments that
emphasize the value of creating a diverse workforce and address the culture of
diversity as opposed to mere compliance with laws and regulations.

6. Succession Planning

Succession planning is the sixth leading practice that GAO identifies in its January 2005
report. Succession planning is tied to the Federal Government’s opportunity to change
the diversity of the executive corps through new appointments and is a comprehensive,
ongoing strategic process that enables management to forecast an organization’s
leadership needs. Identifying and developing candidates who have the potential to be
future leaders, and selecting individuals from among a diverse pool of qualified
candidates to meet executive resource needs is at the heart of succession planning.




                                                16
As Table 4 shows, in the last five years GPO has made significant progress in the overall
diversity of its workforce. Specifically, in FY 2002, there were 32 Grade 15s consisting
of 31 males (6 minorities) and one female (0 minorities). In FY 2007, there were 56
males (14 minorities) and 23 females (11 minorities).

                Table 4. 5-Year Trend Grade 15 (PG-15) Employees

              Fiscal Year                      2002                    2007
    Males                                Number Percent           Number Percent
    White                                  25       78.2            42      53.1
    African American                        5       15.6            11      13.9
    Asian American/Pacific Islander         1        3.1             1       1.3
    Hispanic American                       0        0.0             1       1.3
    Native American                         0        0.0             1       1.3
     Total Males                           31       96.9            56      70.9

    Females
    White                                     1         3.1          12        15.2
    African American                          0         0.0           6         7.6
    Asian American/Pacific Islander           0         0.0           5         6.3
    Hispanic American                         0         0.0           0         0.0
    Native American                           0         0.0           0         0.0
     Total Females                            1         3.1          23        29.1

       Overall Totals                         32       100.0         79       100.0




                                         17
The result of the progress GPO has made in their succession planning has affected the
makeup of its SLS employees. As shown in Table 5 below, in FY 2002, there were 21
SLS employees consisting of 20 males (0 minorities) and one female (1 minority). In FY
2007, there were a total of 26 SLS employees consisting of 23 males (1 minority) and 3
females (2 minorities).

        Table 5. 5-Year Trend Senior Level Service (SLS) Employees

               Fiscal Year                    2002                  2007
    Males                               Number Percent         Number Percent
    White                                 20       95.2          22      84.6
    African American                       0        0.0           0       0.0
    Asian American/Pacific Islander        0        0.0           0       0.0
    Hispanic American                      0        0.0           1       3.9
    Native American                        0        0.0           0       0.0
     Total Males                          20       95.2          23      88.5

    Females
    White                                    0        0.0          1         3.8
    African American                         1        4.8          2         7.7
    Asian American/Pacific Islander          0        0.0          0         0.0
    Hispanic American                        0        0.0          0         0.0
    Native American                          0        0.0          0         0.0
     Total Females                           1        4.8          3        11.5

       Overall Totals                        21      100.0        26       100.0




                                        18
Another way GPO supports succession planning is through leadership programs. A new
program at GPO is called the Leadership, Development, and Recruitment (LDR)
program. The LDR program—a two-year career-building program—began in FY 2007.
As part of the LDR program, employees are recruited from both inside and outside the
Agency. The program allows employees to work in a number of business units to get a
range of hands-on experience of GPO to become potential future leaders within those
same business units. In FY 2007, there were 13 employees—8 males (4 minorities) and 5
females (3 minorities)—enrolled in the LDR program. The second LDR class began in
June 2008 with seven employees—five males and two females (1 minority). Table 6
provides more detail on the makeup of these two classes.

  Table 6. Leadership Development and Recruitment (LDR) Program Employees

              Fiscal Year                      2007                  2008
    Males                                Number Percent          Number Percent
    White                                  4        30.8           5      71.4
    African American                       3        23.0           0       0.0
    Asian American/Pacific Islander        0         0.0           0       0.0
    Hispanic American                      1         7.7           0       0.0
    Native American                        0         0.0           0       0.0
     Total Males                           8        61.5           5      71.4

    Females
    White                                     2        15.4          1        14.3
    African American                          3        23.1          1        14.3
    Asian American/Pacific Islander           0         0.0          0         0.0
    Hispanic American                         0         0.0          0         0.0
    Native American                           0         0.0          0         0.0
     Total Females                            5        38.5          2        28.6

       Overall Totals                         13      100.0          7       100.0


Although GPO can still improve the diversity of its SLS corps with the inclusion of Asian
American/Pacific Islanders, Hispanic Americans, and Native Americans, in the last five
years, GPO has worked to create a diverse pool of qualified candidates for future SLS
positions at both the Grade 15 level and through implementation of the LDR program.

7. Recruitment

Attracting a supply of qualified, diverse applicants for employment is the next leading
practice listed by GAO. GAO states that organizations can widen selection of schools
from which they can recruit to include, for example, Historically Black Colleges and
Universities, Hispanic-Serving Institutions, women’s colleges, and schools with
international programs. Because of the number of Federal employees, including those in


                                         19
senior level positions eligible for retirement in the next decade, the Federal Government
will need more midcareer employees, defined by the GAO as employees generally 40 and
older with 10 or more years of work experience.

In 2006, GPO hired a Recruitment Manager who worked with GPO managers including
EEO and established a plan to recruit diverse candidates for a number of positions
including the LDR Program. The Recruitment Manager along with other recruiters
visited Historically Black Colleges and Universities and Hispanic-Serving Institutions.
In addition, the manager used his personal contacts to generate renewed interest in GPO.
A similar plan created in coordination with the EEO Manager is in place for 2008/2009.
Also, the Hispanic Employment Program Manager e-mails job vacancies to 67 Hispanic
organizations and to more than 800 Hispanic Employment Network individuals. Finally,
significant recruitment planning, efforts and advertising took place in order to find
diverse candidates to fill the positions at GPO’s Secure Production Facility (SPF) in
Mississippi. However, such efforts by Human Capital and EEO may not be fully realized
in the absence of participation by the business unit managers making the employment
selections. Accordingly, we recommend that the business unit managers responsible for
employment selection and recruiting be included in outreach and recruitment efforts.

8. Employee Involvement

Employee involvement is GAO’s eighth practice. Involving employees in diversity
management helps contribute to diversity throughout the organization. Employees can
get involved by: (1) forming employee diversity task forces, councils, boards, and
networks to identify issues, recommend actions, and help develop initiatives to facilitate
change; (2) providing mentoring opportunities to help identify and develop high-potential
employees, improve employee productivity and performance, and promote retention and
diversity; and (3) encouraging employees to volunteer in their communities and
allocating mission personnel to participate in community outreach programs with private
employers, public schools, and universities.

In its report, GAO provides an example of an agency that established a diversity advisory
board and provided a visible forum for independent advice and assistance to management
officials on diversity-related plans, policies, and programs. The same agency also created
an advisory council chaired by a senior manager. The two groups contributed to the
diversity strategic plan which was adopted by agency management. The diversity
strategic plan had the following four objectives:

      Increased awareness of diversity values and sensitivities by senior
       management, managers, and staff.

      Retention of existing diversity and work-life enhancement.

      Active promotion of outreach and creation of a visible network of
       connections or routes to the agency.




                                          20
      Recruitment and workforce planning for enhanced diversity.

GPO has several diverse employee groups such as the Federal Women’s Program,
Hispanic Employment Program, and the Disability Committee. These groups help
identify issues and recommend actions to GPO management. These groups could also
aid GPO management in the development of initiatives and recommendations for a
diversity strategic plan similar to that identified in the GAO report.

In another effort to enhance employee involvement, the AEP Manager introduced GPO’s
Employee Mentoring Program in April 2008. The program is a formal six-month pilot
with 11 mentors and protégés and is designed to enhance employee retention, job
satisfaction, and cross-organizational communication through employees receiving
teaching, guidance, counseling, and coaching from other GPO employees.

GPO also has very active employee involvement. As the GAO report emphasizes,
employees should be empowered to address and identify diversity issues, recommend
actions, and help develop initiatives to address concerns and create greater cultural and
diversity awareness in the workplace for all employees. We recommend that GPO
management evaluate its existing employee groups, identify whether employees’ issues
are fully represented and ensure that the groups are meeting the objectives as identified
by GAO.

9. Diversity Training

GAO’s ninth practice of training can help an organization’s management and staff
increase their awareness and understanding of diversity as well as help it develop
concrete skills for assisting it with communicating and increasing productivity. Training
can provide employees with an awareness of their differences—including cultural, work
style, and personal presentation-and an understanding of how diverse perspectives can
improve organizational performance. GAO also states that to increase employee
effectiveness in a diverse environment, training should include teambuilding,
communication styles, decision-making, and conflict resolution.

EEO officials informed us that GPO plans to adopt this leading practice. The OIG
believes that officials from both EEO and Human Capital should work together to
develop a diversity training curriculum that can be provided to all GPO employees.

Recommendation
2. The Public Printer should adopt all or a combination of the leading practices GAO
   recommends to create and maintain a positive work environment with qualified and
   diverse senior officials by taking the following steps:

   a. Continue to issue to all employees an annual policy statement on his personal
      commitment to equal opportunity and diversity.



                                          21
   b. Link diversity to GPO’s strategic plan.
   c. Include the development of diversity management in its strategic plan.

   d. Develop a data gathering and tracking system for workforce data that will help the
      agency eliminate identified barriers.

   e. Develop a written plan for attracting a supply of qualified, diverse applicants for
      employment, identifying quantitative and qualitative performance measures that
      can track data on its workforce to evaluate the effectiveness of the Agency’s
      diversity management efforts as well as track the return on investment in such
      areas as diversity training and recruitment.

   f. Ensure that managers are responsible for diversity in their business units and that
      awards are based partly on a manager’s success in achieving diversity-related
      goals.

   g. Identify, develop, and select candidates for new appointments who have the
      potential to be future leaders from a diverse pool of qualified candidates.

   h. Empower employees to get involved in diversity management by forming
      employee task forces, councils, and boards that identify issues and recommend
      actions to the diversity strategic plan.

   i. Develop a diversity training program for managers and employees that increases
      awareness and understanding of diversity as well as help develop concrete skills
      to assist in communicating and increasing productivity.

Management’s Response. Concur. Implementation of the recommendation will require
the Public Printer’s review and approval (see Appendix J).

Evaluation of Management’s Response. While GPO management concurred with the
recommendation, they did not provide details regarding what actions the Agency plans to
take to implement the recommendation. As a result, pending receipt of details related to
implementation, the recommendation is considered unresolved. The OIG will work with
GPO management to review any proposed actions to implement the recommendation.




                                         22
              Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the audit was to conduct a review of the diversity office within
the GPO at the request of the Subcommittee on Federal Workforce, Postal Service, and
the District of Columbia, Committee on Oversight and Government Reform, House of
Representatives. The Subcommittee expressed concern about the under representation of
women and minorities in the senior-level positions at the legislative branch agencies.
The GPO OIG was one of five legislative branch agencies jointly conducting this review.
The other legislative branch agencies participating in the review are the Library of
Congress, Government Accountability Office, Architect of the Capitol, and U.S. Capitol
Police. Participating agencies will issue a consolidated report to Congress by
September 2008.

The specific audit objectives were to:

      Identify and assess the diversity program at GPO to determine if it is yielding the
       desired results, that of creating a more diverse population of women and
       minorities in top leadership positions (SLS).

      Evaluate the accuracy and completeness of the complaints and discrimination data
       being reported to the Congress.

      Assess to what degree the diversity offices are independent of the GPO’s General
       Counsel and the Public Printer

Scope and Methodology

To be consistent in our scope and methodology in reporting each particular agency’s
position to the three specific objectives, we followed a uniform audit guide provided to
each participating OIG by the Library of Congress OIG. To address the audit objectives,
we:

   1. Assessed the responses that the EEO Director provided in the: (1) Self-
      Assessment Checklist in MD-715 which identifies the effectiveness of the GPO
      diversity programs; and (2) Data Collection Instrument for Leading Diversity
      Management Practices which gauges the agency’s progress in following leading
      diversity management practices as of January 1, 2008.

   2. Evaluated the accuracy and completeness of GPO’s complaint and discrimination
      data for Fiscal Year 2007.

   3. Assessed the current independence of GPO’s EEO Director and the diversity
      programs with the Public Printer and GPO’s General Counsel.



                                          23
                                                                               Appendix A

We also interviewed officials from the Offices of the General Counsel and Human
Capital to determine whether policies and procedures related to EEO were implemented
and followed. Human Capital officials also provided workforce profile reports and
documentation on recruiting applicants for Agency leadership programs.

Management Controls Reviewed

We reviewed management controls related to EEO areas, including complaint and
discrimination reports as well as the reporting of data for workforce profile reports to
ensure these practices are contained in GPO Instruction 825.18A.

Audit Field Work

We performed field work from April through August 2008 at the GPO Central Office in
Washington, D.C. We performed the audit in accordance with generally accepted
government auditing standards.




                                           24
      Appendix B. Assessment of Whether GPO Practiced the Essential
              Elements of EEOC Management Directive 715


                                                                        Generally             Not
                        Essential Element                               Following          Following
 1.     Demonstrated Commitment from Leadership                             X
 2.     Integration of EEO into the Strategic Mission                                           X19
 3.     Management and Program Accountability                                                   X20
 4.     Proactive Prevention                                                                    X21
 5.     Efficiency                                                           X
 6.     Responsiveness and Legal Compliance                                  X




19
   Although GPO followed the four parts of Element B, the previous strategic plan did not address EEO.
20
   Although GPO followed portions of Element C, it did not include the portions for business unit managers
developing EEO plans and EEO and Human Capital officials identifying any systemic barriers in past
promotions, training, and awards.
21
   Because the data that Human Capital official provided was limited, the AEP Program Manager could not
conduct an annual self-assessment to monitor the progress and identify areas where barriers may operate to
exclude certain groups.



                                                 25
                  Appendix C. White and Blue Collar Workforce Profile by Grade, Race,
                                   and Sex (As of January 28, 2008)

Grade                 Total                 White               Black            Hispanic        Asian / Pacific       American
                    Employees                                                                       Islander            Indian
                                             WHITE COLLAR WORKFORCE
            All      Men    Women     Men        Women   Men        Women   Men      Women   Men        Women      Men    Women
SLS         26       23     3         22         1                  2       1
15          79       56     23        42         12      11         6       1                1          5          1
14          95       60     35        46         24      8          10      3        1       3
13          207      108    99        69         54      28         39      2        1       8          4          1      1
12          303      128    175       79         72      45         91               2       4          8                 2
11          80       28     52        17         12      9          38      2        1                  1
10          4        1      3                                       3       1
9           77       20     57        10         13      9          43                       1                            1
8           15       1      14                   2       1          12
7           95       15     80        8          19      6          56      1        3                  2
6           60       12     48        2          7       8          40      1        1       1
5           91       49     42        13         10      31         29      5        3
4           13       4      9         2          6       2          3
3           8        6      2         2          2       4
2           4        3      1         1          1       2
0           6        4      2         2          2       1                                   1
Subtotal    1163     518    645       315        237     165        372     17       12      19         20         2      4
                                                 BLUE COLLAR WORKFORCE
Subtotal    1100     789    311       296        57      473        250     9                7          4          4

GPO #       2263     1307   956       611        294     638        622     26       12      26         24         6      4

           Source: GPO Office of Human Capital




                                                               26
            Appendix D. Assessment of Whether GPO Exemplifies GAO’s Leading
                           Practices for Diversity Management


       Leading Diversity Practices22                                             Not Yet Adopted                            Level of Adoption
                                                   Do not anticipate                    Will    Plan under   Written plan   Partially    Fully
                                                      adopting         No decision     adopt   development    complete      adopted     adopted
1.   Top leadership commitment – a vision of
     diversity demonstrated and communicated
     throughout an organization by top-level.                                                                                 X23
2.   Diversity as part of an organization’s
     strategic plan – a diversity strategy and
     plan that are developed and aligned with                                X
     the organization’s strategic plan.
3.   Diversity linked to performance – the
     understanding that a more diverse and
     inclusive work environment can yield
     greater productivity and help improve                                   X
     individual and organizational performance.
4.   Measurement – a set of quantitative and
     qualitative measures of the impact of                                   X
     various aspects of an overall diversity
     program.
5.   Accountability – the means to ensure that
     leaders are responsible for diversity by
     linking their performance assessment and                                X
     compensation to the progress of diversity
     initiatives.
6.   Succession planning – an ongoing,
     strategic process for identifying and
     developing a diverse pool of talent for an                                                    X24
     organization’s potential future leaders.
7.   Recruitment – the process of attracting a
     supply of qualified, diverse applicants for                             X
     employment.
8.   Employee involvement – the contribution
     of employees in driving diversity                                       X
     throughout an organization.
9.   Diversity training – organizational efforts
     to inform and educate management and                                    X
     staff about diversity.




           22
              GAO report GAO-05-09, “Diversity Management Expert-Identified Leading Practices and Agency
           Examples,” January 2005.
           23
              Based on the Public Printer’s April 8, 2008, letter on equal opportunity and diversity.
           24
              The Human Capital Office did not have a written plan. However, GPO has made progress in the last five
           years to create a diverse pool of qualified candidates at the Grade 15 level and the implementation of the
           LDR program.


                                                                        27
Appendix E. Public Printer’s April 8, 2008 Letter on Equal
              Opportunity and Diversity




                          28
                 Appendix F. Summary of Leading Practices GPO Followed
                       (From PricewaterhouseCoopers25 Study and
                           EEOC Management Directive 71526)

                                                                                                   Generally          Not
                    Diversity Program Characteristics                              Following       Following       Following
1.    Diversity Program housed separate from the EEO office?                                                           X
2.    Agency has a diversity action or strategic plan?                                                                 X
3.    Agency is conducting targeted recruitment and outreach efforts to
      attract potential under represented minority employees?                                           X
4.    Mentoring Program?                                                                X
5.    Includes awareness events (for example, special emphasis                          X
      functions)?
6.    Includes a diversity council?                                                                                      X
7.    Agency encourages the development of formally or informally
      constituted groups representing specific categories of employees                                  X
      such as women, African Americans, or gays and lesbians?
8.    Includes focus on conflict management (for example, alternative                   X
      dispute resolution or mediation)?
 9.   Diversity training required for managers and supervisors?                                                          X
10.   Diversity training included in employee orientation?                                                               X
11.   Have administered attitude survey as part of assessment?                          X
12.   Diversity element in supervisors/managers performance plans?                                                       X
13.   Are management/personnel policies, procedures and practices
      examined at regular intervals to assess whether there are hidden                                  X
      impediments to equal opportunity?
14.   Does the EEO Director have the authority and funding to ensure                    X
      implementation of agency EEO action plans?
15.   The agency tracks the race, national origin and sex of applicants                                                  X
      for both permanent and temporary employment?
16.   The agency tracks the rates of selections for promotions by race,                                                  X
      national origin and sex?
17.   The agency tracks the rates of training opportunities (hours per                                                   X
      year) by race, national origin and sex?
18.   The agency tracks the rates of performance incentives (monetary
      awards, step increases) by race, national origin and sex?                                                          X
19.   The agency tracks the rates of complaints by race, national origin
      and sex to see if a particular group has more complaints about                   X27
      promotions, disciplinary actions, performance appraisals, or
      awards?
20.   The agency tracks the rates of both voluntary and involuntary
      separations from employment by race, national origin and sex?                                                      X

        25
           “A Changing Workforce: Understanding Diversity Programs in the Federal Government”
        December 2001.
        26
           This table will be included in the consolidated report of the five Legislative Branch agencies to Congress.
        27
           The EEO Office uses this information in their semiannual meetings with business units that began in
        October 2007.


                                                           29
              Appendix G. Accuracy and Completeness of EEO Data28

         Tracking and Reporting the Number and Status of Discrimination Complaints

GPO’s EEO Office uses EEONET, a case management system built to assist EEO
managers and counselors in managing all aspects of information and program
management related to EEO complaints and resolutions. Built to support the EEOC
reporting requirements, EEONET allows automated generation of reports required by
EEOC as well as a variety of other reports and documentation that can be customized to
user and management requirements. The data in EEONET are supported by the manual
files kept as well as a monthly report that is kept to ensure the data is accurate when it is
entered into the system. GPO’s EEO office is required to submit annually EEOC Form
462 report. EEOC incorporates the data along with the other agencies and report it to
Congress. Although the format between “No Fear Act” and EEOC’s 462 are somewhat
different, the data collected are the same. One key difference is that the “No Fear Act”
reporting reflects comparative data for the previous 5 years; EEOC Form 462 report
includes activity that occurred during the preceding fiscal year.

No.                              Discrimination Complaints                                        Yes      No
 1          Does the agency have a system of management controls in place to
            ensure the timely, accurate, complete and consistent reporting of                      X
            EEO complaint data?
     2      Does the agency use a complaint tracking system that allows
            identification of the location and status of complaints, and length of                 X
            time elapsed at each stage of the agency’s complaint resolution
            process?
     3      Does the agency’s tracking system identify the issues and bases of
            the complaints, the aggrieved individuals/complainants, the involved                   X
            management officials and other information to analyze complaint
            activity and trends?
     4      Is the agency statutorily mandated to follow the No Fear Act                                    X
            reporting requirements?
 4a         Does the agency follow the No Fear Act reporting format?                                        X
 4b         Does the agency post its No Fear Act (or similar) data on its web                               X
            site?




28
     This table will be included in the consolidated report of the five Legislative Branch agencies to Congress.


                                                     30
                  Appendix H. Independence of the Diversity Office29

                                                Independence

No.                                                                                             Yes        No
 1        Has the agency placed the EEO Director in a direct reporting                           X
          relationship with the head of the agency?
     2    Does the EEO Director have a regular and effective means of
          informing the agency head and other top management officials
          of the effectiveness, efficiency and compliance (with agency                           X
          regulations or EEOC Directives, if applicable) of the agency’s
          EEO program?
     3    Is the EEO investigative and decision making process separate                          X
          from the personnel function?
     4    Are the legal sufficiency reviews done by a unit separate from                         X
          the personnel function?
     5    Does the agency offer Alternative Dispute Resolution or                                X
          mediation?




29
     This table will be included in the consolidated report of the five Legislative Branch agencies to Congress.


                                                     31
            Appendix I. Acronyms Used in the Report

AEP      Affirmative Employment Program
CCPD     Counseling and Complaints Processing Division
EEO      Equal Employment Opportunity
EEOC     Equal Employment Opportunity Commission
EEONET   Equal Employment Opportunity Network
FWP      Federal Women’s Program
FY       Fiscal Year
GAO      Government Accountability Office
GEM      GPO Employee Mentoring Program
GPO      Government Printing Office
GS       General Schedule
HEP      Hispanic Employment Program
LDR      Leadership, Development, and Recruitment Program
MD       Management Directive
OIG      Office of Inspector General
PG       Printing Office Grade
SES      Senior Executive Service
SLS      Senior Level Service




                                   32
Appendix J. Management’s Response




               33
     Appendix J




34
                  Appendix K. Status of Recommendations


Recommendation No.        Resolved   Unresolved   Open/ECD*   Closed
       1                                 X
       2                                 X
*Estimated Completion Date.




                                        35
                      Appendix L. Report Distribution

Government Printing Office

Deputy Public Printer
Chief of Staff
Chief Management Officer
Chief Financial Officer
Chief Information Officer
Chief Technology Officer
Director, Congressional Relations
Director, Library Services and Content Management
Director, Public Relations
Director, Publication and Information Sales
General Counsel
Managing Director, Customer Services
Managing Director, Official Journals of Government
Managing Director, Plant Operations




                                         36
Major Contributors to the Report
Joseph J. Verch Jr., Supervisory Auditor




                                           37
